1a
APPENDIX A
United States Court of Appeals
for the Federal Circuit
_____________
MYLAN LABORATORIES LTD.,
Appellant
v.
JANSSEN PHARMACEUTICA, N.V.,
Appellee
ANDREW HIRSHFELD, Performing The Functions
And Duties Of The Under Secretary Of Commerce
For Intellectual Property And Director Of The
United States Patent And Trademark Office,
Intervenor
_____________
No. 2021-1071
_____________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2020-00440.
_____________
ON MOTION
_____________
DEEPRO MUKERJEE, Katten Muchin Rosenman
LLP, New York, NY, argued for appellant. Also

2a
represented
by
LANCE
SODERSTROM;
JOHNJERICA
HODGE,
ERIC
THOMAS
WERLINGER, Washington, DC; JITENDRA MALIK,
Charlotte, NC
PRATIK A. SHAH, Akin Gump Strauss Hauer &
Feld LLP, Washington, DC, argued for appellee. Also
represented by Z.W. JULIUS CHEN; RUBEN H.
MUNOZ, Philadelphia, PA; ANDREW D. COHEN,
BARBARA MULLIN, Patterson Belknap Webb &
Tyler LLP, New York, NY.
MELISSA N. PATTERSON, Appellate Staff, Civil
Division, United States Department of Justice,
Washington, DC, argued for intervenor. Also
represented by WEILI J. SHAW; MICHAEL S.
FORMAN, MARY L. KELLY, THOMAS W.
KRAUSE, FARHEENA YASMEEN RASHEED,
MOLLY R. SILFEN, Office of the Solicitor, United
States Patent and Trademark Office, Alexandria,
VA.
_____________
Before NEWMAN, MOORE, and STOLL, Circuit
Judges.
MOORE, Circuit Judge.
ORDER
Mylan Laboratories Ltd. appeals a Patent Trial
and Appeal Board (Board) decision that denied
institution of inter partes review (IPR) for U.S.
Patent No. 9,439,906. Mylan Labs. Ltd. v. Janssen
Pharmaceutica, N.V., No. IPR2020-00440, 2020 WL

3a
5580472 (P.T.A.B. Sept. 16, 2020) (Board Decision).
It also seeks mandamus relief. 1 Janssen, the patent
owner, moves to dismiss Mylan’s appeal for lack of
jurisdiction. The United States Patent and
Trademark Office (Patent Office) intervened and
supports Janssen’s motion. Because we lack
jurisdiction over appeals from decisions denying
institution, we grant Janssen’s motion to dismiss.
Although we have jurisdiction over mandamus
petitions challenging such decisions, Mylan has not
shown it is entitled to such an extraordinary remedy.
Thus, we dismiss Mylan’s appeal and deny its
request for mandamus.
BACKGROUND
In 2019, Janssen sued Mylan in district court for
infringing certain claims in the ’906 patent. Less
than six months later, Mylan petitioned for IPR of
that patent. It raised four grounds for the
unpatentability of certain claims, all based on 35
U.S.C. § 103. Opposing institution, Janssen claimed
IPR would be an inefficient use of Board resources
because of two co-pending district court actions: the
suit against Mylan and another suit against Teva
Pharmaceuticals USA, Inc. It argued the validity
issues in those co-pending actions overlapped with
Mylan’s petition and that both actions would likely

Mylan cited the All Writs Act, 28 U.S.C. § 1651, in its
Notice of Appeal and requested mandamus at argument. See
Notice of Appeal at 1. We hold that sufficient to seek
mandamus relief in the circumstances of this case. GTNX, Inc.
v. INTTRA, Inc., 789 F.3d 1309, 1312 (Fed. Cir. 2015)
(interpreting notice of appeal that cited § 1651 as seeking
mandamus).

1

4a
reach final judgment before any IPR final written
decision.
The Board agreed with Janssen and denied
institution. Board Decision at *1–11. In exercising its
discretion, the Board applied its six-factor standard
for evaluating whether to deny institution in view of
an earlier trial date in a co-pending district court
proceeding. See Apple v. Fintiv, IPR2020-00019, 2020
WL 2126495 (P.T.A.B. Mar. 20, 2020) (precedential)
(the Fintiv factors 2). It found substantial overlap
between the issues raised in Mylan’s IPR petition
and the co-pending district court actions. It also
found both district court actions would likely reach
final judgement before any final written decision.
The Board, in part, relied on the Teva trial date,
which was only a few weeks away. Thus, the Board
concluded it would be an inefficient use of resources
to institute IPR.
Mylan appeals. It claims “(1) that the Board’s
determination to deny institution . . . based on the
timing of a separate district-court litigation to which
Petitioner is not a party, undermines Petitioner’s
constitutional and other due process rights; and (2)
The factors are: “(1) whether the [district] court granted a
stay or evidence exists that one may be granted if a proceeding
is instituted; (2) proximity of the [district] court’s trial date to
the Board’s projected statutory deadline for a final written
decision; (3) investment in the parallel proceeding by the
[district] court and the parties; (4) overlap between issues
raised in the petition and in the parallel proceeding; (5)
whether the petitioner and the defendant in the parallel
proceeding are the same party; and (6) other circumstances that
impact the Board’s exercise of discretion, including the merits.”
Apple v. Fintiv, IPR2020-00019, 2020 WL 2126495, at *2
(P.T.A.B. Mar. 20, 2020).
2

5a
the Board’s continued adoption and application of
non-statutory institution standards through ad hoc
proceedings lie in contrast to congressional intent.”
Notice of Appeal at 1. It also requests mandamus
relief on the same grounds.
DISCUSSION
Janssen’s motion implicates two distinct
jurisdictional questions: first, whether we have
jurisdiction over Mylan’s direct appeal, and second,
whether we have jurisdiction over Mylan’s request
for mandamus. We address each question in turn.
I
The jurisdiction of federal courts is limited to
those cases and controversies delineated in Article
III of the Constitution. And the “[j]urisdiction of the
lower federal courts is further limited to those
subjects encompassed within a statutory grant of
jurisdiction.” Ins. Corp. of Ireland v. Compagnie des
Bauxites de Guinee, 456 U.S. 694, 701 (1982).
Because no statute grants us jurisdiction over
appeals from decisions denying institution, we must
dismiss Mylan’s direct appeal.
Our general grant of jurisdiction, 28 U.S.C. §
1295(a)(4), and the appeal bar, 35 U.S.C. § 314(d),
are most relevant here. Read together, those statutes
preclude direct appeal from a decision denying
institution:
• § 1295(a)(4): [We] shall have exclusive
jurisdiction . . . of an appeal from a decision
of [Board] with respect to . . . inter partes
review . . . .

6a
• § 314(d): No Appeal. The determination by
the Director whether to institute an inter
partes review under this section shall be final
and non-appealable.
(emphases added). At a first glance, the “appeal from
a decision” language in § 1295(a)(4) seems broad,
perhaps broad enough to reach an appeal from a
decision denying institution. But § 314(d), the more
specific statute, dispels any such notion. See, e.g.,
Morales v. Trans World Airlines, Inc., 504 U.S. 374,
384 (1992) (“[I]t is a commonplace of statutory
construction that the specific governs the general.”).
Section 314(d) prevents “appeal” from a decision
denying institution. Without the ability to “appeal,”
parties cannot make use of § 1295(a)(4)’s
jurisdictional grant.
Our decision in St. Jude Medical, Cardiology
Division, Inc. v. Volcano Corp., 749 F.3d 1373 (Fed.
Cir. 2014) recognized the limits § 314(d) places on
our § 1295 jurisdiction. There, we held “that we may
not hear [an] appeal from the Director’s denial of [a]
petition for inter partes review.” Id. at 1375. We
relied “on the structure of the [IPR] provisions, on
the language of section 314(d) within that structure,
and on our jurisdictional statute read in light of
those provisions.” Id. Specifically, we determined
that § 314(d) barred “an appeal of the non-institution
decision” at issue. Id. at 1376. 3
We see no conflict between our decisions in St. Jude and
Arthrex, Inc. v. Smith & Nephew, Inc., 880 F.3d 1345, 1349
(Fed. Cir. 2018). Arthrex’s holding that an adverse judgment
under 37 C.F.R. § 42.73(b) is appealable pursuant to § 1295
does not conflict with St. Jude’s holding that non-institution
decisions are nonappealable.
3

7a
Mylan argues the Supreme Court has undermined St. Jude, but that is not so. Every relevant
Supreme Court case involved an appeal from a final
written decision—not an institution decision. In that
posture, 35 U.S.C. § 319 provided jurisdiction: “a
party dissatisfied with the final written decision of
the [Board] . . . may appeal . . . .” So there was no
reason to consider how § 314(d) affects § 1295(a)(4).
When the Supreme Court discussed decisions
denying institution, however, it suggested such
decisions are unreviewable. In Cuozzo Speed
Technologies, LLC v. Lee, 136 S. Ct. 2131, 2140
(2016), the Court noted that decisions denying
institution are “committed to agency discretion.” Id.
(citing 5 U.S.C. §§ 701(a)(2) and 35 U.S.C. § 314(a)).
That suggests that, consistent with St. Jude,
decisions denying institution are not subject to
review on direct appeal.
To be sure, the Supreme Court has recognized
and relied upon the “strong ‘presumption in favor of
judicial review.’ ” SAS Inst. Inc. v. Iancu, 138 S. Ct.
1348, 1359 (2018) (quoting Cuozzo, 136 S. Ct. at
2140). But that does not undermine St. Jude or our
reasoning here. Section 314 bars direct appeal from a
decision denying institution.
No other statute provides jurisdiction over
Mylan's appeal. First, 35 U.S.C. § 319 is limited to
“final written decisions under section 318(a).” It does
cross reference other statutes, 35 U.S.C. § 141–44,
but nothing in the cross-referenced statutes broadens
§ 319’s plain language. See id. § 141(c) (allowing
appeal of “final written decision . . . under section
318(a)”). This is not a final written decision. Second,
the Administrative Procedure Act, 5 U.S.C. § 701–

8a
706, cannot confer jurisdiction over decisions denying
institution. GTNX, Inc., 789 F.3d at 1313 (holding
the APA “is not a jurisdiction-conferring statute”
(internal quotation omitted)). Nor could it overcome §
314(d)’s specific bar on appeals from institution
decisions. Morales, 504 U.S. at 384 (holding “the
specific governs the general”).
Therefore, no statute confers jurisdiction over
appeals from decisions denying institution. Without
such a statute, we lack jurisdiction over those
appeals. See Ins. Corp. of Ireland, 456 U.S. at 701.
Accordingly, we grant Janssen’s motion and dismiss
Mylan’s direct appeal.
II
While there is no avenue for direct appeal of
decisions denying institution, we conclude that
judicial review is available in extraordinary
circumstances by petition for mandamus. Mandamus
is not a remedy unique to our Court. The All Writs
Act provides that “the Supreme Court and all courts
established by an Act of Congress may issue all writs
necessary or appropriate in aid of their respective
jurisdictions . . . .” 28 U.S.C. § 1651(a). We have long
known the All Writs Act “does not expand a court’s
jurisdiction.” See, e.g., Cox v. West, 149 F.3d 1360,
1363 (Fed. Cir. 1998). It is, however, “well settled
that ‘the authority of the appellate court is not
confined to the issuance of writs in aid of jurisdiction
already acquired by appeal but extends to those
cases which are within its appellate jurisdiction
although no appeal has been perfected.’” Telecomms.
Rsch. & Action Ctr. v. F.C.C., 750 F.2d 70, 76 (D.C.
Cir. 1984) (TRAC) (quoting F.T.C. v. Dean Foods Co.,
384 U.S. 597, 603–04 (1966)). “In other words,

9a
section 1651(a) empowers a federal court to issue
writs of mandamus necessary to protect its
prospective jurisdiction.” Id.
We must be careful not to read “prospective”
jurisdiction too broadly, however. If every event that
“might lead to a filing before an agency or lower
court, which might lead to an appeal to this court”
fell within that category, our prospective jurisdiction
would be boundless. In re Tennant, 359 F.3d 523, 529
(D.C. Cir. 2004); accord In re Donohoe, 311 F. App’x
357, 358 (Fed. Cir. 2008) (non-precedential) (citing
Tennant). “[I]t is easy enough to spin out ‘for want of
a nail’ scenarios from any set of facts that could
eventually lead to this court.” Tennant, 359 F.3d at
529. But when a party has “at least [taken] the first
preliminary step that might lead to appellate
jurisdiction in this court in the future,” prospective
jurisdiction has been triggered. Id. The preliminary
step of an IPR is the filing of a petition, and the
Director has the discretion to grant or deny such
petition. 35 U.S.C. § 314(a); Cuozzo, 136 S. Ct. at
2140. From beginning to end, the “petition . . .
guide[s] the life of [IPR] litigation.” SAS, 138 S. Ct.
at 1356.
And we have exclusive jurisdiction over any
permissible appeal from a final decision of the Board
in an IPR. In general, 28 U.S.C. § 1295(a)(4) provides
us “exclusive jurisdiction” over Board decisions to the
extent they are appealable. Likewise, 35 U.S.C. §
141(c) allows “a party to an inter partes review . . .
who is dissatisfied with the final written decision” to
“appeal the Board’s decision only to” this Court. “The
structure of th[is] statutory scheme . . . reveals
congressional intent to preclude district court review

10a
of IPR decisions.” Sec. People, Inc. v. Iancu, 971 F.3d
1355, 1362 (Fed. Cir. 2020). And we are aware of no
other potential forum for review of IPR decisions. See
generally 28 U.S.C. § 1338(a) (“No State court shall
have jurisdiction over any claim for relief arising
under any Act of Congress relating to patents . . . .”).
Thus, this Court alone has prospective jurisdiction
once a petitioner seeks IPR.
When institution is denied, the appeal bar in §
314(d) prevents any direct appeal. But that statute is
silent with respect to mandamus. There is no reason,
therefore, to think § 314(d) also divests us of
mandamus jurisdiction. In fact, when the Board
denies institution, our mandamus jurisdiction is
especially important. Like unreasonable delay of
agency action, a decision denying institution “defeats
[our] prospective jurisdiction.” Cf. Int’l Union, United
Mine Workers of Am. v. U.S. Dep’t of Labor, 358 F.3d
40, 43 (D.C. Cir. 2004) (holding mandamus review is
available when an agency withdraws a proposed rule
and the court had exclusive jurisdiction to review
any promulgated rule). A decision denying
institution prevents the Board from issuing any final
decision that falls within our direct appellate
jurisdiction. We must, therefore, be able to protect
our prospective jurisdiction through mandamus. 4 We
We note that the government agrees that this court has
jurisdiction to review a petition for writ of mandamus
challenging the denial of institution in order to protect its
jurisdiction. Oral Arg. at 29:12–29:44 (government: “I don't
think there is some sort of jurisdictional limit” for seeking
mandamus), 31:25–32:20 (government: The Federal Circuit can
“act in aid of its jurisdiction . . . by entertaining petitions for
writs
of
mandamus,”
applying
TRAC),
http://oralarguments.cafc.uscourts.gov/default.aspx?fl=21-

4

11a
conclude that challenges to the denial of institution
fall within the TRAC rubric. To protect our future
jurisdiction, we have jurisdiction to review any
petition for a writ of mandamus denying institution
of an IPR.
Though not explicitly, precedent confirms the
existence of our mandamus jurisdiction. Several
petitioners have sought mandamus relief from some
aspect of an institution decision. See, e.g., In re Power
Integrations, Inc., 899 F.3d 1316, 1318 (Fed. Cir.
2018); GTNX, Inc., 789 F.3d at 1313; In re Dominion
Dealer, 749 F.3d 1379, 1381 (Fed. Cir. 2014); see also,
e.g., Apple Inc. v. Optis Cellular Tech., LLC, No.
2021-1043, 2020 WL 7753630, at *1 (Fed. Cir. Dec.
21, 2020) (non-precedential); In re Cisco Sys. Inc.,
834 F. App’x 571, 573 (Fed. Cir. 2020) (nonprecedential). Each time, we held the petitioner had
failed to show a clear right to relief and denied
mandamus rather than dismissed the petition.
Though the opinions are silent as to jurisdiction, to
reach that question, we must have had jurisdiction.
In other cases, we have explicitly suggested the
possibility of mandamus relief: “mandamus may be
available to challenge the PTO’s decision to grant a
petition to institute IPR after the Board’s final
decision in situations where the PTO has clearly and
indisputably exceeded its authority.” In re Cuozzo
Speed Techs., LLC, 793 F.3d 1268, 1274 (Fed. Cir.
2015), aff’d on other grounds sub nom., Cuozzo, 136
S. Ct. 2131.

1071_02122021.mp3; cf. id. at 01:05:36–06:14 (Janssen: “I agree
with everything [the government] said about mandamus.”).

12a
Ultimately, Mylan triggered our exclusive
jurisdiction by petitioning for IPR. It set the
administrative machinery into motion and opened an
avenue for appellate jurisdiction, no matter how
“prospective or potential that jurisdiction might be.”
Tennant, 359 F.3d at 529. And we may consider any
petition for a writ of mandamus in order to protect
that jurisdiction. Accordingly, we have jurisdiction to
consider Mylan’s request for mandamus on the
merits.
III
Mylan believes it is entitled to mandamus relief
based on two statutory challenges and one
constitutional challenge. First, it faults the Patent
Office for adopting the Fintiv standard through a
precedential Board decision, rather than notice-andcomment rulemaking. By doing so, Mylan claims, the
Board exceeded the scope of its statutory authority.
See 35 U.S.C. § 316(a)(2). Second, Mylan argues the
Fintiv standard unlawfully shortens the limitations
period for filing an IPR. Id. § 315(b). Finally, Mylan
contends the Fintiv standard is unconstitutional as
applied here. It claims that its due process rights
were violated when the Board relied on the Teva
litigation to deny institution.
Mandamus is a “drastic and extraordinary
remedy reserved for really extraordinary causes.”
Cheney v. U.S. Dist. Court for D.C., 542 U.S. 367, 380
(2004). “[O]nly exceptional circumstances amounting
to a judicial usurpation of power, or a clear abuse of
discretion will justify” such relief. Id. (internal
citations and quotation omitted). “As the writ is one
of the most potent weapons in the judicial arsenal,
three conditions must be satisfied before it may

13a
issue.” Id. (internal quotation and citation omitted).
The petitioner must: (1) show that it has a clear and
indisputable legal right; (2) show it does not have
any other adequate method of obtaining relief; and
(3) convince the court that the writ is appropriate
under the circumstances. Id. at 380–81 (citation
omitted).
When a mandamus petition challenges a decision
denying institution, the mandamus standard will be
especially difficult to satisfy. The scope of our review
of a mandamus petition over a denial of institution is
very narrow. As the Supreme Court has explained,
“the [Patent Office]’s decision to deny a petition is a
matter committed to the Patent Office’s discretion.
See [5 U.S.C.] § 701(a)(2); 35 U.S.C. § 314(a) (no
mandate to institute review).” Cuozzo, 136 S. Ct. at
2140. The Director is permitted, but never compelled,
to institute an IPR. And no petitioner has a right to
such institution. For example, the Director is free, as
in this case, to determine that for reasons of
administrative efficiency an IPR will not be
instituted, as agencies generally are free, for similar
reasons, to choose not to initiate enforcement
proceedings. Heckler v. Chaney, 470 U.S. 821, 830–32
(1985). And the Supreme Court has determined that
such a decision is committed to agency discretion by
law. Cuozzo, 136 S. Ct. at 2140. Given this
determination and the statute’s bestowal of
discretion on the Director combined with its
prohibition on appeal of such decisions, we conclude
that there is no reviewability of the Director’s
exercise of his discretion to deny institution except
for colorable constitutional claims. Cf., e.g., Webster
v. Doe, 486 U.S. 592, 603–04 (1988) (holding that a
“colorable” constitutional claim was reviewable in

14a
district court even where the substance of the
underlying termination decision was not); Woodward
v. United States, 871 F.2d 1068, 1072 (Fed. Cir. 1989)
(“While the statute and cited authorities indicate
that the Secretary’s discretion is generally
unfettered, employment actions claimed to be based
on constitutionally infirm grounds are nevertheless
subject to judicial review.”). 5
While we need not explore the outer contours of
possibility, it is difficult to imagine a mandamus
petition that challenges a denial of institution and
identifies a clear and indisputable right to relief.
Certainly, this is not such a petition. Mylan lacks a
clear and indisputable right to review of the Patent
Office’s determination to apply the Fintiv factors or
the Patent Office’s choice to apply them in this case
through adjudication rather than notice-andcomment rulemaking. Given the limits on our
We need not decide whether any petition for writ of
mandamus challenging the Patent Office’s grant of institution
could ever be meritorious. Decisions granting institution involve
a fundamentally different calculus. See Cuozzo, 136 S. Ct. at
2153 n.6 (Alito, J., concurring-in-part and dissenting-in-part)
(“A patent challenger does not have nearly as much to lose from
an erroneous denial of inter partes review as a patent owner
stands to lose from an erroneous grant of inter partes review.”).
The majority in Cuozzo cited the dissent’s footnote 6 with
approval. Id. at 2140.
5

We note that the Supreme Court has suggested decisions
granting institution may be reviewable (to a limited extent) on
direct appeal from a final written decision. See Cuozzo, 136 S.
Ct. at 2141–42; see also SAS, 138 S. Ct. at 1359 (reviewing
“exactly the sort of question” Cuozzo left open). The availability
of review on direct appeal may preclude mandamus, which
requires that no other adequate avenue for relief be possible.
See Cheney, 542 U.S. at 380, 124 S.Ct. 2576.

15a
reviewability, Mylan’s ultra vires argument cannot
be a basis for granting the petition for mandamus.
Mylan’s time bar argument under § 315(b) fails for
the same reason.
Finally, Mylan fails to state a colorable claim for
constitutional relief. It does not identify a
deprivation of “life, liberty, [or] property,” so any
procedural due process challenge is foreclosed. Stone
v. F.D.I.C., 179 F.3d 1368, 1375 (Fed. Cir. 1999)
(“Procedural due process requires that certain
substantive rights—life, liberty, and property—
cannot be deprived except pursuant to constitutionally adequate procedures.”); see also Oral Arg. at
44:38–46:15 (questioning whether deprivation of a
property right is required for a due process claim, but
not identifying any property right). To be sure, we
have held that a judgment must not bind a person
“who was not party or privy and therefore has never
had an opportunity to be heard.” See, e.g., In re Trans
Tex. Holdings Corp., 498 F.3d 1290, 1297 (Fed. Cir.
2007). But that rule is inapposite here. Mylan will
not be bound by the Teva litigation; it is free to
litigate the ’906 patent claims’ validity in its own
district court case.
Likewise, we are aware of no “history [or]
tradition” that supports a fundamental right to have
the Board consider whether to institute one’s IPR
petition based only upon co-pending litigation to
which you are a party. Washington v. Glucksberg,
521 U.S. 702, 720–21 (1997). That is, Mylan had no
right for its petition to be considered without
reference to the Teva litigation and no right to an
IPR. Thus, Mylan has also failed to state a colorable
claim under substantive due process.

16a
*

*

*

For the foregoing reasons, we lack jurisdiction
over Mylan’s direct appeal. Though we have
jurisdiction over its request for mandamus, Mylan
has failed to show a clear right to relief. Accordingly,
IT IS ORDERED THAT:
(1) Janssen’s motion is granted;
(2) Mylan’s petition for a writ of mandamus is
denied; and
(3) Costs are awarded to Janssen.
FOR THE COURT
March 12, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

17a
APPENDIX B
UNITED STATES PATENT AND TRADEMARK
OFFICE
_____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
_____________
MYLAN LABORATORIES LTD.
Petitioner,
v.
JANSSEN PHARMACEUTICA NV,
Patent Owner.
_____________
IPR2020-00440
Patent 9,439,906 B2
_____________
Before JOHN G. NEW, KRISTINA M. KALAN, and
ROBERT A. POLLOCK, Administrative Patent
Judges.
NEW, Administrative Patent Judge.
DECISION
Denying Institution of Inter Partes Review
35 U.S.C. § 314(a)

18a
I. INTRODUCTION
Petitioner Mylan Laboratories Ltd. (“Petitioner”)
has filed a Petition (Paper 3, “Petition” or “Pet.”)
requesting inter partes review of claims 1–21 of US
Patent 9,439,906 B2 (Ex. 1001, “the ’906 patent”).
Patent Owner Janssen Pharmaceutica NV (“Patent
Owner”) has filed a Preliminary Response (Paper 8,
“Preliminary Response” or “Prelim. Resp.”). On July
2, 2020, the panel issued an order authorizing
Petitioner to file a Reply to the Preliminary Response
and further authorizing Patent Owner to file a SureReply (Papers 12 and 14, “Reply” and “Sur-Reply,”
respectively.
Under 35 U.S.C. § 314, the Board “may not
authorize an inter partes review to be instituted
unless … the information presented in the petition …
and any response … shows that there is a reasonable
likelihood that Petitioner would prevail with respect
to at least one of the claims challenged in the
petition.” Upon consideration of the Petition, and of
the supporting evidence, we exercise our discretion
under § 314(a) to deny institution.
II. BACKGROUND
A. Real Parties-in-Interest
The real parties-in-interest for Petitioner are
Mylan Laboratories Ltd., Mylan Institutional LLC,
Mylan Pharmaceuticals Inc., Mylan Inc., and Mylan
N.V. Pet. 4. Patent Owner’s Mandatory Notices
identify Janssen Pharmaceutica NV and Janssen
Pharmaceuticals, Inc., which are wholly-owned
subsidiaries of Johnson & Johnson (“J&J”), as the
real parties-in-interest for Patent Owner. Paper 6, 1.

19a
B. Related Matters
Petitioner identifies the following district court
actions involving the ’906 patent: (1) Janssen
Pharmaceuticals, Inc. et al. v. Teva Pharmaceuticals
USA, Inc. et al., 2-18-cv-00734 (D.N.J.); (2) Janssen
Pharmaceuticals, Inc. et al. v. Mylan Laboratories
Ltd.,
2-19-cv-16484
(D.N.J.);
(3)
Janssen
Pharmaceuticals, Inc. et al. v. Mylan Laboratories
Ltd., 1-19-cv-00153 (N.D. W. Va.); (4) Janssen
Pharmaceuticals, Inc. et al. v. Mylan Laboratories
Ltd., 1-19-cv-01488 (D. Del.); (5) Janssen
Pharmaceuticals, Inc. et al. v. Pharmascience Inc. et
al., Case No. 2-19-cv-21590 (D.N.J.); (6) Janssen
Pharmaceuticals, Inc. et al. v. Pharmascience Inc. et
al., 1-19- cv-02313 (D. Del.). Pet. 5. The Patent
Owner similarly identifies these actions as involving
the ’906 patent. Paper 6, 1.
C. The Asserted Grounds of Unpatentability
Petitioner contends that the ’906 patent is
unpatentable based on the following grounds:
Claim
35 U.S.C. §
Challenged
1–7, 15, 17–
21

103 1

Reference(s)/Basis
Citrome 2,
patent 4

Cleton 3,

’544

Because the patent at issue has an effective filing date
before March 16, 2013, the effective date of the applicable
provisions of the Leahy Smith America Invents Act, Pub. L. No.
112–29, 125 Stat. 284 (2011) (“AIA”), we apply the pre-AIA
version of 35 U.S.C. §103(a) in this decision.

1

L. Citrome, Paliperidone: Quo Vadis? 61(4) INT. J. CLIN.
PRACT. 653–62 (2007) (“Citrome”) (Ex. 1004).
2

20a
8–14, 16

103

Citrone, Cleton,
Palperidone Formulary 5,
’544 patent

1–7, 15, 17–
21

103

Citrome, ’544 patent

8–14, 16

103

Citrone, Palperidone
Formulary, ’544 patent

Petitioner also relies upon the Declaration of its
expert, Dr. Mansoor M. Amiji (the “Amiji
Declaration”) (Ex. 1002).
D. The ’906 Patent
The ’906 patent is directed to a method of treating
patients in need of treatment with long acting
injectable paliperidone palmitate formulations.

The Cleton reference is collectively constituted of: (1) A.
Cleton et al., Assessment of the Dose Proportionality of
Palperidone Palmitate 25, 50, 100 And 150 mg eq., A New LongActing Injectable Antipsychotic Following Administration in the
Deltoid or Gluteal Muscles (Abstract PI-74); and (2) A. Cleton et
al., Evaluation of the Pharmacokinetic Profile of Gluteal Versus
Deltoid Intramuscular Injections of Palperidone Palmitate 100
Mg Equivalent in Patients with Schizophrenia (Abstract PI-75),
in 83 (Supp. 1) CLIN. PHARMACOL. & THERAPS. S31 (2008)
(“Cleton”) (Ex. 1003). The Patent Owner routinely refers to
these references as “PI-74” and “PI-75.”
3

US 6,555,544 B2, April 29, 2003 (the “’544 patent”) (Ex.
1005).

4

D.J. Cada et al., Formulary Drug Review: Palperidone, 42(7)
HOSP. PHARM. 637–47 (2007).
5

21a
E. Illustrative Claims
Independent claim 1 is representative of the
claims of the ’906 patent and recites:
1. A dosing regimen
paliperidone palmitate to
in need of treatment
schizoaffective disorder,
disorder comprising

for administering
a psychiatric patient
for schizophrenia,
or schizophreniform

(1)

administering intramuscularly in the
deltoid of a patient in need of treatment a
first loading dose of about 150 mg-eq. of
paliperidone as paliperidone palmitate
formulated in a sustained release formulation on the first day of treatment;

(2)

administering intramuscularly in the
deltoid muscle of the patient in need of
treatment a second loading dose of
about100 mg-eq. of paliperidone as paliperidone palmitate formulated in a sustained release formulation on the 6th to
about 10th day of treatment; and

(3)

administering intramuscularly in the
deltoid or gluteal muscle of the patient in
need of treatment a first maintenance
dose of about 25 mg-eq. to about 150 mgeq. of paliperidone as paliperidone palmitate in a sustained release formulation a
month (± 7 days) after the second loading
dose.

Ex. 1001 col. 32, ll. 11–30. Independent claim 8 is
similar to claim 1, and is directed to the treatment of
renally-impaired patients:

22a
8. A dosing regimen for administering
paliperidone palmitate to a renally impaired
psychiatric patient in need of treatment for
schizophrenia, schizoaffective disorder, or
schizophreniform disorder comprising
(a)

administering intramuscularly in the
deltoid of a renally impaired psychiatric patient in need of treatment a first
loading dose of from about 75 mg-eq.
of paliperidone as paliperidone palmitate formulated in a sustained release
formulation on the first day of treatment;

(b)

administering intramuscularly in the
deltoid muscle of the patient in need of
treatment a second loading dose of
from about 75 mg-eq. of paliperidone
as paliperidone palmitate formulated
in a sustained release formulation on
the 6th to about 10th day of treatment; and

(c)

administering intramuscularly in the
deltoid or gluteal muscle of the patient
in need of treatment a first maintenance dose of about 25 mg-eq. to about
75 mg-eq. of paliperidone as paliperidone palmitate in a sustained release
formulation a month (±7 days) after
the second loading dose.

Id. at cols. 32–33, ll. 66–20.

23a
III. ANALYSIS
A. Claim Construction
In an inter partes review for a petition filed on or
after November 13, 2018, the “[claims] of a patent …
shall be construed using the same claim construction
standard that would be used to construe the [claims]
in a civil action under 35 U.S.C. § 282(b), including
construing the [claims] in accordance with the
ordinary and customary meaning of such claims as
understood by one of ordinary skill in the art and the
prosecution history pertaining to the patent.” See 37
C.F.R. § 42.100(b) (2019); see also Phillips v. AWH
Corp., 415 F.3d 1303, 1312–14 (Fed. Cir. 2005) (en
banc). Only those terms that are in controversy need
be construed, and only to the extent necessary to
resolve the controversy. See Nidec Motor Corp. v.
Zhongshan Broad Ocean Motor Co., 868 F.3d 1013,
1017 (Fed. Cir. 2017) (citing Vivid Techs., Inc. v.
America Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed.
Cir. 1999)).
Petitioner asserts that it is unaware of prior claim
construction determination concerning the ’906
patent in any of the related proceedings listed in
II.B. supra. Pet. 9. Petitioner therefore argues that
no claim construction is necessary and the
challenged claims should be afforded a meaning “in
accordance with the ordinary and customary
meaning of such claim as understood by one of
ordinary skill in the art and the prosecution history
pertaining to the patent.” Id. (quoting 37 C.F.R. §
42.100(b)). Patent Owner does not dispute the
Petitioner’s assertions.

24a
We consequently conclude that resolving whether
we should institute inter partes review does not
require any express claim construction.
B. A Person of Ordinary Skill in the Art
The Petitioner asserts that, with respect to the
’906 patent, a person of ordinary skill in the art
would have had: (1) several years’ experience in
designing and formulating drug delivery systems
including parenteral systems based on analyzing
pharmacokinetic data such as blood serum or drug
plasma levels and clearance rates and familiarity
with depot formulations; (2) an advanced degree
(M.S. and/or Ph.D.) in pharmaceutical sciences,
and/or pharmaceutics or a related degree; and (3)
experience with the formulation of therapeutic
agents, their dosing, and the literature concerning
drug developmental study and design. Pet. 13–14.
The Petitioner also asserts that a skilled artisan
might consult with individuals having specialized
expertise, for example, a physician with experience
in the administration, dosing, and efficacy of drugs,
and/or a regulatory affairs specialist. Id. at 14 (citing
Ex. 1002 ¶¶ 33–37).
Absent any objection by Patent Owner, we adopt
Petitioner’s proposed definition of a person of
ordinary skill in the art as of the date of invention
because it is consistent with the level of skill in the
art at the time of the invention as reflected by the
prior art and the Specification of the ’906 patent. See
Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed. Cir.
2001) (explaining that specific findings regarding
ordinary skill level are not required “where the prior
art itself reflects an appropriate level and a need for
testimony is not shown” (quoting Litton Indus.

25a
Prods., Inc. v. Solid State Sys. Corp., 755 F.2d 158,
163 (Fed. Cir. 1985))).
C. The Board’s Discretion to Deny Institution under
35 U.S.C. § 314(a)
The Patent Owner urges the Board to exercise its
discretion under 35 U.S.C. § 314(a) and deny
institution of the proposed inter partes review.
Prelim. Resp. 6. The Patent Owner argues that,
under § 314(a), the Board must consider whether the
nature of co-pending district court litigation on the
same patent is such that instituting trial “would be
an efficient use of the Board’s resources.” Id. at 6–7
(quoting NHK Spring Co. v. IntriPlex Techs., Inc.,
IPR2018-00752, Paper 8 at 19–20 (PTAB Sept. 12,
2018) (precedential)).
Patent Owner contends that, under our precedential decision in Apple Inc. v. Fintiv, Inc., IPR202000019, Paper 15 at 12–17 (PTAB May 13, 2020), in
deciding “whether efficiency, fairness, and the merits
support the exercise of authority to deny institution
in view of an earlier trial date in the parallel
proceeding,” the Board should consider a variety of
factors, and, in evaluating these factors, “takes a
holistic view of whether efficiency and integrity of
the system are best served.” Prelim Resp. 11 (quoting
Fintiv, Paper 11 at 5–6; also citing Samsung Elecs.
Am., Inc. v. Uniloc 2017 LLC, IPR2020-00117, Paper
11 at 7–11 (PTAB May 28, 2020) (same). According to
Patent Owner, granting the Petition for inter partes
review would be an inefficient use of Board
resources. Id.
Specifically, Patent Owner points to two of the
related litigations cited in Section II.B. supra: (1)

26a
Janssen Pharmaceuticals, Inc. et al v. Teva
Pharmaceuticals USA, Inc. et al., 2-18-cv-00734
(D.N.J.) (the “Teva litigation”); and (2) Janssen
Pharmaceuticals, Inc. et al. v. Mylan Laboratories
Ltd., 2-19-cv-16484 (D.N.J.) (the “Mylan litigation”).
Patent Owner contends that the procedural postures
of each of these cases is such that institution by the
Board of an inter partes review would be an
inefficient use of Board resources.
1. The Teva litigation
In the Teva litigation, the validity of claims 1–21
of the ’906 patent is the only issue to be resolved at
trial, and all claims are challenged as being obvious
for reasons overlapping those of the instant Petition.
Exs. 2006; 2007 at 40–41. In that litigation, Teva
asserts that the ’906 patent is invalid under 35
U.S.C. § 103(a) as being obvious over:
1. Cleton, the ’548 Trial 6, and the ’544 patent
2. Cleton, the ’548 Trial, and the ’544 patent, in
view of Cleton 2007 and Paliperidone ER 2006
3. Cleton, the ’548 Trial, the ’544 patent and,
optionally, in view of DOFA 2006 and Vieta
2001

The “’548 Trial” refers to Clinicaltrials.gov, NCT00210548 A
Study to Evaluate the Effectiveness and Safety of 3 Doses of
Paliperidone
Palmitate
in
Treating
Subjects
With
Schizophrenia, available at https://clinicaltrials.gov/ct2/history/
NCT00210548?V_11
=View#StudyPageTop
(last
visited
September 3, 2020) (Ex. 1032). The ’548 Trial is summarized in
Table 1 of Citrome, and, in the Petition, the Petitioner relies on
Citrome as teaching these summarized aspects of the ’548 Trial.
See, e.g., Pet. 36.
6

27a
4. Cleton, the ’548 Trial, and/or the ’544 patent,
with the WO ’312 application and the WO ’384
application, in view of Cleton 2007 and paliperidone ER 2006
5. Cleton, the ’548 trial, and the ’544 patent, in
view of Ereshefsky 1990, Ereshefsky 1993 and
paliperidone ER 2006
6. Cleton, the ’548 trial, and the ’544 patent, in
view of Gibaldi or Goodman & Gilman
7. Cleton, the ’548 trial, and the ’544 patent, in
view of Ereshesky 1990, Ereshefsky 1993,
paliperidone ER 2006 and Gibaldi or Goodman
& Gilma
Ex. 2007 at 41.
Fact and expert discovery in the Teva litigation
were completed in early 2020, and trial is set for
September 28, 2020, ten days after the mandatory
date for institution of this proposed inter partes
review. Ex. 2005
2. The Mylan litigation
In the Mylan litigation, the validity of claims 1–
21 of the ’906 patent is also a central issue to be
determined at trial. Exs. 2001; 2007. In that
litigation, Mylan asserts that the ’906 patent is
invalid under 35 U.S.C. § 103(a) on the following
grounds:
1. Claims 1-7, 15, and 17-21 as being obvious
over the combination of NCT 548 7, Cleton [PI]75 8, and/or the ’544 patent
This reference appears to be the same as the ’548 Trial,
summarized in Citrome. See fn.6.

7

28a
2. Claims 8-14, and 16 as being obvious over
NCT 548, Cleton [PI-]75, the Paliperidone
Formulary and/or the ’544 patent
Ex. 2008 at 41, 53.
In this action, brought pursuant to the HatchWaxman Act, 21 U.S.C. § 355, all fact discovery is
scheduled to be completed by November 13, 2020,
and all expert discovery is due to be completed by
February 19, 2021. Ex. 2003. A tentative trial date
sometime in June 2021 has been proposed, but dates
for the pretrial conference and the trial itself have
yet to be determined. Exs. 2004, 2003. The statutory
thirty-month stay imposed by 21 U.S.C. §
355(j)(5)(B)(iii) is due to expire on January 2, 2022.
Ex. 2004 at 5.
3. The Fintiv Factors
In NHK, the Board held that, in the event there
exists a parallel district court proceeding, in which
the Petitioner asserted the same prior art and
arguments, then instituting inter partes review
“would not be consistent with ‘an objective of the AIA
. . . to provide an effective and efficient alternative to
district court litigation.’” NHK at 20 (quoting General
Plastic Ind. Co., Ltd. v. Canon Kabushiki Kaisha,
IPR2016-01357, Paper 19 at 16–17 (PTAB Sept. 6,
2017). The parallel district court litigation in NHK
was in its latter stages, with expert discovery ending
two months after the mandatory date for the
proposed institution of the inter partes review. Id. A
jury trial was also set to begin six months afterward,
concluding six months prior to the mandatory date
8

See fn.3.

29a
for the Final Written Decision in the proposed inter
partes review. Id. The Board therefore exercised its
discretion under § 314(a) and declined to institute
trial.
Our precedential decision in Apple v. Fintiv held
that, as with other non-dispositive factors considered
for institution under 35 U.S.C. § 314(a), an early trial
date should be weighed as part of a “balanced
assessment of all relevant circumstances of the case,
including the merits.” Fintiv, 5 (citing the
Consolidated Trial Practice Guide, November 2019
(“TPG”) at 58; also citing Abbott Vascular, Inc. v.
FlexStent, LLC, IPR2019-00882, Paper 11 at 31
(PTAB Oct. 7, 2019) (declining to adopt a bright-line
rule that an early trial date alone requires denial in
every case)).
In Fintiv, the Board set forth six factors relating
to whether efficiency, fairness, and the merits
support the exercise of authority to deny institution
in view of an earlier trial date in the parallel
proceeding:
1. whether the court granted a stay or evidence
exists that one may be granted if a proceeding
is instituted;
2. proximity of the court’s trial date to the
Board’s projected statutory deadline for a final
written decision;
3. investment in the parallel proceeding by the
court and the parties;
4. overlap between issues raised in the petition
and in the parallel proceeding;

30a
5. whether the petitioner and the defendant in
the parallel proceeding are the same party;
and
6. other circumstances that impact the Board’s
exercise of discretion, including the merits.
Fintiv at 21. We consider these interrelated factors,
as they apply to the facts of the Petition, as follows.
a. Fintiv Factor #1: Whether the court granted a stay or evidence exists that one may
be granted if a proceeding is instituted.
“A district court stay of the litigation pending
resolution of the PTAB trial allays concerns about
inefficiency and duplication of efforts. This fact has
strongly weighed against exercising the authority to
deny institution under NHK.” Fintiv at 6 (citing
Precision Planting, LLC v. Deere & Co., IPR201901052, Paper 19 at 10 (PTAB Jan. 7, 2020)).
In neither the Teva litigation nor the Mylan
litigation has a stay been entered. Furthermore,
neither Petitioner nor Patent Owner has indicated
that a motion for a stay has been filed, that there is
an intention to file, or that filing has even been
contemplated in either litigation. At this stage of the
Teva litigation, with trial set to commence on
September 28, 2020 (see Ex. 2005 ¶ 5), it seems
highly unlikely that the district court, at this late
stage of the proceeding, would enter a stay of the
litigation pending the year-long duration of an inter
partes review. Prelim. Resp. 12; Sur-Reply 1.
In the Mylan litigation, discovery is ongoing and
all discovery is scheduled to be completed in
February 2021. Although the court has not yet set a

31a
date for trial, a trial in June of 2021 has been
proposed by both parties (see Ex. 2004), and with the
30-month limit provided for by 21 U.S.C. §
355(j)(5)(B)(iii) expiring on January 2, 2022, we think
it unlikely that a stay will be granted in the Mylan
litigation, either. Id; see also Prelim. Resp. 12; SurReply 1.
We consequently conclude that the balance of
facts in the two litigations indicate that no stay is
likely to be entered in either, and therefore Fintiv
factor 1 leans towards denial of institution.
b. Fintiv Factor #2: Proximity of the court’s
trial date to the Board’s projected statutory
deadline for a final written decision.
If the trial dates in the parallel litigations are
earlier than the projected statutory deadline, this
weighs in favor of exercising authority to deny
institution under NHK. Fintiv at 9. But if the court’s
trial date is at or around the same time as the
projected statutory deadline, or even significantly
after the projected statutory deadline, the decision
whether to institute will likely implicate the other
Fintiv factors, such as the resources that have been
invested in the parallel proceeding. Id.
The Teva litigation is scheduled to begin trial
later this month, ten days after the mandatory
decision date for institution of this inter partes
review and almost a year prior to the deadline for a
final written decision in this inter partes review. Ex.
2005 ¶ 5. A trial date has not been set for the Mylan
litigation, although both parties, in their Joint
Proposed Discovery Plan, have proposed a trial date
sometime in June 2021. Ex. 2004 at 5. The district

32a
court has, however, adopted the schedule set in the
parties’ Joint Proposed Discovery Plan for fact and
expert discovery, with the former closing in
November 2020 and the latter in February 2021. Ex.
2003 at 3. A trial date set in the summer of 2021,
before the mandatory deadline for the Final Written
Decision in this proposed inter partes review,
therefore seems likely. We therefore find that this
factor weighs strongly in favor of denying institution.
Fintiv, 9.
c. Fintiv Factor #3: Investment in the parallel
proceeding by the court and the parties.
Under Fintiv factor #3, we consider the amount
and type of work already completed in the parallel
litigation by the court and the parties at the time of
the institution decision. Fintiv, 9. Specifically, if, at
the time of the institution decision, the district court
has issued substantive orders related to the patent at
issue in the petition, this fact favors denial. Id. at 9–
10 (citing E-One, Inc. v. Oshkosh Corp., IPR201900162, Paper 16 at 8, 13, 20 (PTAB June 5, 2019)).
Similarly, district court claim construction orders
may indicate that the court and parties have
invested sufficient time in the parallel proceeding to
favor denial. Id. at 10 (citing Next Caller, Inc. v.
TRUSTID, Inc., IPR2019-00963, Paper 8 at 13
(PTAB Oct. 28, 2019)).
However, if the district court has not issued
orders related to the patent at issue in the petition,
prior to the mandatory date for institution, this fact
weighs against exercising discretion to deny
institution under NHK. Id. (citing Facebook, Inc. v.
Search and Social Media Partners, LLC, IPR201801620, Paper 8 at 24 (PTAB Mar. 1, 2019) (district

33a
court proceeding in its early stages, with no claim
constructions having been determined); Amazon.com,
Inc. v. CustomPlay, LLC, IPR2018-01496, Paper 12
at 8‒9 (PTAB Mar. 7, 2019).
Fintiv factor #3 is thus related to Fintiv factor #2,
insofar as that more work completed by the parties
and court in the parallel proceeding tends to support
the arguments that the parallel proceeding is more
advanced, a stay may be less likely, and instituting
would lead to duplicative costs. Id.
Furthermore, under Fintiv factor #3, if the
evidence shows that the petitioner filed the petition
expeditiously, such as promptly after becoming
aware of the claims being asserted, this fact has
weighed against exercising the authority to deny
institution under NHK. Fintiv at 11 (citing, e.g., Intel
Corp. v. VLSI Technology LLC, IPR2019-01192,
Paper 15 at 12‒13 (January 9, 2020)). If, however,
the evidence shows that the petitioner did not file the
petition expeditiously, such as at or around the same
time that the patent owner responded to the
petitioner’s invalidity contentions, or even if the
petitioner cannot explain the delay in filing its
petition, these facts have favored denial. Id. at 12
(citing Next Caller, Inc. v. TRUSTID, Inc., IPR201900961, Paper 10 at 16 (PTAB Oct. 16, 2019)).
The Teva litigation is trial-ready, representing a
very considerable investment by both parties. See Ex.
2005 ¶ 5. Furthermore, the Patent Owner contends,
in the Mylan litigation, the parties have exchanged
binding validity contentions, and fact discovery is
presently ongoing. Prelim. Resp. 13. The Patent
Owner also asserts that Petitioner did not file its
Petition with the Board until the day it was

34a
scheduled to receive Janssen’s response to its
invalidity contentions to file this Petition, which, the
Petitioner asserts, weighs in favor of denial under
Fintiv factor #3. Id. at 8, 13 (citing Fintiv at 12).
The Petitioner replies that the Petition was filed
prior to receiving Janssen’s responsive contentions.
Reply at 2 (citing Prelim. Resp. 4–5). The Petitioner
also argues that the Patent Owner admits that
Mylan filed its Petition six months before the
statutory deadline and without the benefit of
Janssen’s responsive validity contentions. Reply 3
(citing Prelim. Resp. 7, 8). The Petitioner points to
Oticon Medical AB et al. v. Cochlear Ltd, IPR201900975, Paper 15 at 22–23 (October 16, 2019)
(precedential) as demonstrating that this time of
filing avoids any prejudice to Janssen. Id. (also citing
Apple Inc. v. Seven Networks LLC, IPR2020-00156,
Paper 10 at 11 (PTAB Jun. 15, 2020)).
Petitioner argues further that the Petition in this
proceeding was filed six weeks after serving its
invalidity contentions in the Mylan litigation. Id. at 4
(citing Ex. 2003 at 1). Petitioner points to Seven
Networks, at 11, in which the Board declined to
exercise §314(a) discretion when Petition filed
“fourteen weeks after its initial invalidity
contentions.” Id. Petitioner asserts that it was
reasonable for Mylan to avoid incurring any IPR
expenses until litigation ensued and Janssen
identified the asserted claims. Id. (citing Fintiv at 11)
(holding that it was “reasonable for a petitioner to
wait to file its petition until it learns which claims
are being asserted against it”).
We find that the balance of facts in evidence
weigh in favor of denial. As we have explained, the

35a
Teva litigation is poised to go to trial within the next
few weeks. See Ex. 2005 ¶ 5. In the Mylan litigation,
Mylan has served Janssen with its initial invalidity
contentions, and Janssen has served Mylan with its
responses to the invalidity contentions. See Exs.
2008, 2002. The court in the Mylan litigation has
entered its scheduling order, with fact discovery to be
completed in November, 2020 and expert discovery in
February, 2021. Neither party has acknowledged any
potential issues of claim construction that need to be
resolved. See, e.g., Pet. 9. It is therefore reasonably
likely that the Mylan litigation will go to trial
sometime in June 2021, or shortly thereafter, as
proposed by the parties in their Joint Proposed
Discovery Plan. Ex. 2004 at 5. Consequently, in both
the Teva and Mylan litigations, we find that the
district court has issued substantive orders related to
the patent at issue in the petition regarding
scheduling of discovery and trial (the latter in the
case of the Teva litigation), and claim construction is
not likely to be at issue. See Fintiv at 9–10. These
facts favor denial. Id.
Furthermore, Fintiv states, with respect to factor
#3, that “notwithstanding that a defendant has one
year to file a petition, it may impose unfair costs to a
patent owner if the petitioner, faced with the
prospect of a looming trial date, waits until the
district court trial has progressed significantly before
filing a petition at the Office.” Fintiv at 11. Fintiv
continues in this vein:
If, however, the evidence shows that the
petitioner
did
not
file
the
petition
expeditiously, such as at or around the same
time that the patent owner responds to the

36a
petitioner’s invalidity contentions, or even if
the petitioner cannot explain the delay in
filing its petition, these facts have favored
denial.
Fintiv at 11–12 (emphasis added) (citing Next Caller,
Inc. v. TRUSTID, Inc., IPR2019-00961, Paper 10 at
16 (PTAB Oct. 16, 2019) (finding that “Had [the
Petitioner] filed this Petition … around the same
time as the service of the initial invalidity
contentions, the proceeding in this case may have
resolved the issues prior to the Parallel District
Court Proceeding” and concluding that this delay
favored denial). In this instance, Petitioner did not
file the Petition at or about the time (December 20,
2019) Mylan served its initial invalidity contentions
in the Mylan litigation. See Prelim. Resp. 8
(indicating that the Petition was filed when Janssen
served Mylan with its response to Mylan’s initial
invalidity contentions on February 7, 2020).
Because we therefore find that: (1) there is a near
certainty that trial will be completed in the Teva
litigation imminently, so that the district court will
have invested significant resources in assessing the
validity of the challenged patent well before the
Board would issue a Final Written Decision should
we institute inter partes review; (2) there is a
reasonable likelihood that, given the current
investment of time and resources by the parties and
the court in the Mylan litigation and the fact that a
stay is unlikely, the district court and the parties will
have invested significant resources in assessing the
validity of the challenged patent well before the
Board would issue a Final Written Decision; and (3)
the timing of the Petitioner’s filing its Petition for

37a
inter partes review, we conclude that Fintiv factor #3
favors denial.
d. Fintiv Factor #4: overlap between issues
raised in the petition and in the parallel
proceeding.
With respect to factor #4, Fintiv informs us that:
If the petition includes the same or
substantially the same claims, grounds,
arguments, and evidence as presented in the
parallel proceeding, this fact has favored
denial. Conversely, if the petition includes
materially different grounds, arguments
and/or evidence than those presented in the
district court, this fact has tended to weigh
against exercising discretion to deny institution under NHK.
Fintiv at 12–13 (internal references omitted). In this
instance, the validity of claims 1–21 of the ’906
patent is a principal (and in the Teva litigation, the
only) issue to be determined at trial. In the Petition,
claims 1–7, 15, 17–21 are alleged to be invalid over
the combined teachings of Cleton, Citrome, and the
’544 patent, and claims 8–14 and 16 are alleged to be
invalid over Citrone, Cleton, the ’544 patent, and the
Palperidone Formulary. Pet. 14–15. In the Teva
litigation, claims 1–21 are alleged to be invalid over
the combination principally of Cleton, the ’548 Trial,
and the ’544 patent, and optionally with, or in view
of, certain other references. Ex. 2007 at 41. In the
Mylan litigation, claims 1–7, 15, 17–21 are alleged to
be invalid over the combination of NCT 548, Cleton
[PI-]75, and/or the ’544 patent, and claims 8–14 and
16 are alleged to be invalid over NCT 548, Cleton

38a
[PI-]75, and/or the ’544 patent, and the Palperidone
Formulary. Ex. 2008 at 41, 53.
As we have explained supra, both the ’548 Trial in
the Teva litigation, and NCT 548 in the Mylan
litigation, refer to NCT00210548, a Phase III clinical
palperidone palmitate trial in patients diagnosed
with schizophrenia. See fn.6 supra. The pertinent
details of the ’548 Trial (i.e., dosage, dosage
intervals, and duration of the study) are included in
Table 1 of Citrone, upon which Petitioner relies in
arguing the invalidity of the ’906 patent in the
present Petition. See, e.g., Pet. 36; see also fn.6 supra.
We consequently find that both the Teva and
Mylan litigations assert that claims 1–21 of the ’906
patent are invalid over a combination of the ’544
patent, Cleton (which includes PI-75 9), and the ’548
Trial/NCT 548, which is summarized in pertinent
part in Citrome. These references are also all relied
upon in the Petition’s allegation that claims 1–21 of
the ’906 patent are invalid. The only reference that
the Petition relies upon that is not cited in the Teva
litigation (though cited in the Mylan litigation) is the
Palperidone Formulary with respect to claims 8–14
and 16 of the ’906 patent. The Petitioner relies upon
the Palperidone Formulary as teaching that “[t]he
dose of paliperidone should be reduced in patients
with moderate or severe renal function impairment.”
Pet. 46 (citing Ex. 1006 at 638). We cannot discern
whether the remaining references relied upon in the
Teva litigation address the issue of reducing the
dosage of palperidone palmitate in renally-impaired
patients, although we think it likely, given the
9

See fn.3, supra.

39a
express limitations of claims 8–14 and 16. See, e.g.,
claim 8 of the ’906 patent: “A dosing regimen for
administering paliperidone palmitate to a renally
impaired psychiatric patient in need of treatment for
schizophrenia,
schizoaffective
disorder,
or
schizophreniform disorder comprising….”
Because we find that the validity of claims 1–21
of the ’906 patent are central to both the Teva and
Mylan litigations, and is, in fact, the only issue in at
least the former case, and because we find that both
litigations and the proposed inter partes review rely
primarily upon the same references in their
invalidity contentions, viz., Cleton, the ’544 patent,
and the ’548 trial/NCT 548, which is summarized,
with respect to the relevant elements of the study, in
Citrome, we conclude that the balance of facts with
respect to Fintiv factor #4 favors denial.
e. Fintiv Factor #5: whether the petitioner
and the defendant in the parallel proceeding are the same party.
Petitioner in the proposed inter partes review and
the defendant in the Mylan litigation is the same
party, viz., Mylan. See Pet. 4; Ex. 2001 at 1. The
defendant in the Teva litigation is, self-evidently, an
unrelated party, i.e., Teva Pharmaceuticals USA,
Inc. See, e.g., Ex. 2006 at 1. This would appear to
balance the facts with respect to Factor #5. However,
Fintiv informs us that:
Even when a petitioner is unrelated to a
defendant [ ], if the issues are the same as, or
substantially similar to, those already or about
to be litigated, or other circumstances weigh
against redoing the work of another tribunal,

40a
the Board may, nonetheless, exercise the
authority to deny institution. An unrelated
petitioner should, therefore, address any other
district court or Federal Circuit proceedings
involving the challenged patent to discuss why
addressing the same or substantially the same
issues would not be duplicative of the prior
case even if the petition is brought by a
different party.
Fintiv 14 (internal references omitted).
The Petitioner responds that at least one other
panel has questioned the relevance of Fintiv factor
#5. Reply 5 (citing Seven Networks at 20, fn.12 (not
disagreeing that Factor #5 could appear “contrary to
the goal of providing district court litigants an
alternative
venue to
resolve
questions of
patentability”) and Cisco Sys., Inc. v. Ramot at Tel
Aviv Univ. Ltd., IPR2020-00122, Paper 15 at 10
(PTAB May 15, 2020) (APJ Crumbley, dissenting)).
According to the Petitioner, 35 U.S.C. § 315(b)
states that the defendant who was “served with a
complaint alleging infringement of the patent” has
one year to file its Petition. And, the Petitioner
asserts, Congress has mandated that the defendant
file the IPR, or be subject to the one year bar.
Chevron v. Natural Resources Defense Council Inc.,
467 US 837, 842– 843 (1984) (“First, always, is the
question whether Congress has directly spoken to the
precise question at issue.”). Therefore, the Petitioner
concludes, Fintiv factor #5 is neutral.
We disagree. The Petitioner is indisputably the
defendant in the Mylan litigation, which, as we have
explained, is reasonably likely to go to trial prior to

41a
what would be the mandatory date of the Final
Written Decision if we instituted inter partes review
on this Petition. Mylan will have the opportunity to
fully litigate the invalidity of the ’906 patent in that
case, which is already well underway. Furthermore,
although the defendant in the Teva litigation is
unrelated to the Petitioner, we have found that “the
issues [in both the Mylan and Teva litigations] are
the same as, or substantially similar to, those
already or about to be litigated.” Fintiv at 14; see
Section III.C.3.d (re Fintiv factor #4) supra. We
therefore conclude that, because the Petitioner is the
same as the defendant in the Mylan litigation, and
because the issues in both the Teva and Mylan
litigations are substantially the same as those raised
in the Petition, Fintiv factor #5 favors denial.
f. Fintiv Factor #6: other circumstances that
impact the Board’s exercise of discretion,
including the merits.
In Fintiv factor #6, we consider any other relevant
circumstances in the case, including whether the
merits favor institution or denial of inter partes
review. See Fintiv at 14. If, for example, the merits of
a ground raised in the petition seem particularly
strong on the preliminary record, this fact has
favored institution. Id. at 14–15 (citing, e.g.,
Illumina, Inc. v. Natera, Inc., IPR2019-01201, Paper
11 at 6 (PTAB August 27, 2019)). However, if the
merits of the grounds raised in the petition are a
closer call, then that fact has favored denying
institution when other factors favoring denial are
present. Id. at 15 (citing E-One, Inc. v. Oshkosh
Corp., IPR2019-00162, Paper 16 at 8, 13, 20 (PTAB

42a
June 5, 2019)). A full analysis of the merits is not
required, however. Id. at 15–16.
The Patent Owner contends that the Petition
suffers
from
numerous
alleged
deficiencies
warranting denial on the merits. Prelim. Resp. 16.
Briefly, the Patent Owner contends that Grounds 1
and 2 of Mylan’s petition rely on references (viz.,
Cleton PI–74 and PI–75 10) that are not prior
art.Prelim. Resp. 20. The Patent Owner further
alleges that the Petitioner’s arguments and its
accompanying expert testimony are conclusory,
hindsight-driven, and unsupported or contradicted
by the record. Id. at 25. Finally, the Patent Owner
contends that the Petitioner fails to provide
evidentiary foundations for its obviousness grounds.
Id. at 61.
The Petitioner responds that Citrome is the
primary reference employed in all four grounds, thus
reducing the draw on Board resources. Reply 6
(citing Pet. 27). The Petitioner further alleges that,
with an unopposed expert and only attorney
argument in response, Petitioner’s arguments are
“particularly strong on the preliminary record.” Id.
(citing Fintiv at 14, 15 fn.29). The Petitioner further
replies that it is likely to prevail upon the merits,
which favors institution.
Balancing the factors, we conclude that Fintiv
factor #6 is neutral. Although we do not provide a
complete analysis of the merits, we find the question
of whether Cleton qualifies as prior art to be a close
call, and does not tip the balance in either direction.
10

See fn.3 supra.

43a
We conclude that Factor #6 is neutral in our analysis
of the Fintiv factors.
4. Summary
For the reasons we have explained, we find that
Fintiv factors #1–#5 favor denial, and that Fintiv
factor #6 is neutral. No factors in our analysis weigh
towards institution. We consequently exercise our
discretion under 35 U.S.C. § 314(a) and decline to
grant Petitioner’s Petition seeking inter partes
review.
IV. CONCLUSION
For the reasons we have explained, we conclude
that, pursuant to an analysis of the factors set forth
in our precedential opinion in Fintiv with respect to
the specific facts of this case, we find that the
balance of the factors favor the exercise of our
discretion to deny the Petition for institution of inter
partes review in this case.
V. ORDER
In consideration of the foregoing, it is hereby:
ORDERED, pursuant to 35 U.S.C. § 314(a), that
the Petition for inter partes review of claim 1–21 of
the ’428 patent is DENIED with respect to all
grounds in the Petition; and
FURTHER ORDERED that no inter partes review
is instituted.

44a
FOR PETITIONER:
Jitendra Malik, Ph.D.
Guylaine Haché, Ph.D.
Alissa M. Pacchioli
Lance Soderstrom
KATTEN MUCHIN ROSENMAN LLP
jitty.malik@katten.com
guylaine.hache@katten.com
alissa.pacchioli@katten.com
lance.soderstrom@katten.com
FOR PATENT OWNER:
Barbara L. Mullin
Andrew D. Cohen
Joong Youn (Jay) Cho
PATTERSON BELKNAP WEBB & TYLER LLP
bmullin@pbwt.com
acohen@pbwt.com
jcho@pbwt.com
Ruben H. Munoz
AKIN GUMP STRAUSS HAUER & FELD LLP
rmunoz@akingump.com

45a
APPENDIX C
Statutory Provisions Involved
28 U.S.C. § 1295(a)(4)(A)
§1295. Jurisdiction of the United States Court
of Appeals for the Federal Circuit
(a) The United States Court of Appeals for the
Federal Circuit shall have exclusive jurisdiction—
*****
(4) of an appeal from a decision of—
(A) the Patent Trial and Appeal Board of the
United States Patent and Trademark Office
with respect to a patent application, derivation
proceeding, reexamination, post-grant review,
or inter partes review under title 35, at the
instance of a party who exercised that party’s
right to participate in the applicable proceeding before or appeal to the Board, except that
an applicant or a party to a derivation proceeding may also have remedy by civil action
pursuant to section 145 or 146 of title 35; an
appeal under this subparagraph of a decision
of the Board with respect to an application or
derivation proceeding shall waive the right of
such applicant or party to proceed under
section 145 or 146 of title 35[.]

46a
35 U.S.C. § 314(a), (d)
§314. Institution of inter partes review
(a) THRESHOLD. —
The Director may not authorize an inter partes
review to be instituted unless the Director
determines that the information presented in the
petition filed under section 311 and any response
filed under section 313 shows that there is a
reasonable likelihood that the petitioner would
prevail with respect to at least 1 of the claims
challenged in the petition.
*****
(d) NO APPEAL. —
The determination by the Director whether to
institute an inter partes review under this section
shall be final and nonappealable.
35 U.S.C. § 315(b)
§ 315. Relationship to other proceedings or
actions
*****
(b) PATENT OWNER’S ACTION. —
An inter partes review may not be instituted if the
petition requesting the proceeding is filed more than
1 year after the date on which the petitioner, real
party in interest, or privy of the petitioner is served
with a complaint alleging infringement of the patent.
The time limitation set forth in the preceding
sentence shall not apply to a request for joinder
under subsection (c).

47a
35 U.S.C. § 316(a)(2), (4)
§ 316. Conduct of inter partes review
(A) REGULATIONS. —The Director shall prescribe
regulations—
*****
(2) setting forth the standards for the showing of
sufficient grounds to institute a review under
section 314(a);
*****
(4) establishing and governing inter partes review
under this chapter and the relationship of such
review to other proceedings under this title[.]

